Centers for Medicare and Medicaid Services (CMS) | Office of Inspector General
Review of Blue Cross and Blue Shield of Georgia Medicare Payments to Providers Terminated From January 1, 2003, Through January 31, 2007
August 18, 2008 | Audit A-05-08-00039
Executive Summary
Blue Cross and Blue Shield of Georgia, Inc., a Medicare fiscal intermediary, made unallowable Medicare payments totaling $14,000 to two providers for services that were performed after the providers were terminated from Medicare.
Complete Report
Download the complete report (PDF)
Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
Return to CMS